                                      SOCIAL SECURITY
MEMORANDUM
Date:      August 19, 2002                                                                  Refer
To:

To:        The Commissioner

From:      Inspector General

Subject:   Effectiveness of the Social Security Administration's Earnings After Death Process
           (A-03-01-11035)


           Attached is a copy of our final report. Our objective was to determine the effectiveness
           of the Social Security Administration's procedures for resolving earnings suspended due
           to the earnings after death process.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                          James G. Huse, Jr.


           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    EFFECTIVENESS OF THE SOCIAL
     SECURITY ADMINISTRATION'S
   EARNINGS AFTER DEATH PROCESS


  August 2002      A-03-01-11035
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE
Our objective was to determine the effectiveness of the Social Security Administration's
(SSA) procedures for resolving earnings suspended due to the earnings after death
(EAD) process.

BACKGROUND
Title II of the Social Security Act requires that SSA maintain the reported earnings
records of individuals. To accomplish this, SSA uses the name and Social Security
number (SSN) on the reported earnings and compares this information to the Numident,
SSA's database containing all issued SSNs. If the name/SSN combination is
determined to be valid, SSA records the individual’s earnings in his or her Master
Earnings File (MEF) account. Reported earnings that cannot be associated with a
specific individual's name and/or SSN are placed in the Earnings Suspense File (ESF).

As part of the annual earnings reporting process, SSA also reviews the Numident to
determine whether the individual is deceased. When a date of death is present on the
Numident, all earnings items reported after the year of death are placed in the ESF.
The earnings are also transmitted to an EAD investigate file so notices can be printed
and mailed to employers and/or earners.

SSA sends EAD notices to employers, employees, and self-employed individuals.
Employer responses are returned to SSA for processing. If the employer states the
individual was working for them, SSA sends a notice to the employee requesting that he
or she visit a field office to correct the earnings information. At the field office, staff
interview the individual and verify his or her identification. If the evidence appears valid,
SSA personnel reinstate the wages to the proper MEF account. If the employer states
the wage earner is deceased, SSA informs the employer to refund the employee's share
of the Social Security taxes to the employee's estate or next of kin, and the relevant
wages will remain in the ESF. Notices sent to employees and self-employed earners
request that the individuals call SSA or visit a field office to resolve the earnings
problem.

RESULTS OF REVIEW
SSA's EAD process was not effective in resolving Tax Year (TY) 1998 suspended
earnings items. While SSA reinstated approximately 6 percent of the suspended items
in our sample, another 22 percent of the suspended items could also have been
reinstated. Half of these potential reinstatements related to suspended items that SSA
could have reinstated since the individuals were shown as alive on SSA's records. In
the remaining cases, SSA's records indicated the individuals may be incorrectly listed
as deceased or other parties earned the funds in the ESF.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                         i
Another 33 percent of the sample items contained instances where it appears someone
else was using the deceased individual's name and/or SSN. The remaining 39 percent
of the sample items related to deceased individuals with legitimate earnings that should
not have been reported to SSA as wages. About one-third of these legitimate earnings
related to entertainment industry employers. Our review of the EAD investigate file for
TY 1998 also indicated that 7 of the top 10 contributors to the file were from the
entertainment industry.

Also, SSA did not utilize employer responses on returned EAD notices to permanently
remove wage items from the ESF. In addition, SSA’s EAD notice could do more to
assist employers in understanding SSA and IRS reporting responsibilities for wages
paid after an employee’s death.

CONCLUSIONS AND RECOMMENDATIONS

We identified several areas where the effectiveness of SSA's EAD process could be
improved. While SSA has been able to reinstate some suspended earnings through the
EAD process, we identified a significant number of items where earners are alive on
SSA's records, but the earnings have not been reinstated. In these cases, a periodic
comparison of earlier EAD suspended items to the most recent Numident could have
led to the reinstatement of these suspended items. In addition, SSA could implement
procedures to remove suspended wages from the ESF when the employer confirms the
employee’s death. SSA could also reduce the number of items entering the ESF by
educating employers—particularly entertainment industry employers—on the process
for reporting earnings when the earner is deceased.

To improve the Agency's ability to reinstate wages suspended under the EAD process,
we recommend that SSA:

·   Resolve remaining cases in our sample where the individuals were determined to be
    alive, incorrectly listed as deceased, or where another party earned the funds in the
    ESF.

·   Periodically match prior year EAD suspended items to the Numident to determine
    whether the individuals are still listed as deceased. If they are not deceased,
    reinstate their earnings as appropriate.

·   Remind staff reinstating earnings suspended under the EAD process to (1) remove
    the date of death on the Numident and (2) determine whether additional items
    suspended for the same individual can be reinstated.

·   Maintain the annual EAD investigate files with unresolved suspended items for later
    review of potential SSN misuse by SSA and the Office of the Inspector General
    (OIG). The OIG will use this information to conduct trend analysis, investigations or
    seek other remedies.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                         ii
·   As EAD notices are returned, remove from the ESF those wage items specifically
    identified in the notice related to employees whose deaths are confirmed by
    employers.

·   Educate the top 10 contributors to the EAD investigate file—especially entertainment
    industry employers—that earnings reported after the year of death should be
    reported as miscellaneous income, not as wages.

·   Add language to the EAD notice to educate employers on the proper reporting
    procedures for wages after employees have died.

AGENCY COMMENTS
SSA agreed with five of our seven recommendations, provided a qualified concurrence
with Recommendation 5 and disagreed with Recommendation 6. SSA agreed with the
intent of Recommendation 5. However, SSA noted there is no mechanism for simply
deleting items from the ESF. Regarding Recommendation 6, SSA stated that the dollar
amount of items placed into suspense is extremely low from these employers. As a
result, SSA does not believe that implementing this recommendation would be cost-
effective.

OIG RESPONSE

We believe Recommendation 5, regarding the removal of wage items related to
employees whose deaths are confirmed by employers, is consistent with SSA's efforts
to reduce the size and growth of the ESF. As a result, SSA may need to revisit its
policy regarding wage removal and ensure that such changes are part of future
enhancements to the ESF.

We also believe SSA should act on Recommendation 6 to reduce the number of wage
items going into the ESF. In TY 1998, SSA incurred administrative costs notifying these
employers of approximately 9,500 instances where wages were reported after an
employee’s death. Hence, SSA is already spending time and resources on these
employers. By contacting these employers, SSA could reduce a similar workload in
future years. Also, since most of the entertainment employers cited in our report appear
to be located in California, SSA may expend fewer resources educating these
employers than expected.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                   iii
                                             Table of Contents
                                                                      Page

INTRODUCTION………………………………………………………………………… 1

RESULTS OF REVIEW………………………………………………………………… 5

 Effectiveness of EAD Process…………..…………………………………………… 5

 Effectiveness Over the Past 5 Years.…………………….………………………                6

 SSA Reinstatements and Recurring Suspensions………….……………………… 7

 Potential Reinstatements……………………………………………………………… 8

 Questionable Use of Deceased Names and SSNs.…………………….…………. 9

 Non-Wage Reporting by Employers….………………………..…………………… 10

 EAD Notice and Processing of Responses….………………………..…………… 11

CONCLUSIONS AND RECOMMENDATIONS….…………………………….…… 12

OTHER MATTERS……..……………………………………………………………… 14

APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Earnings After Death Notice

APPENDIX C – Flow Chart of Earnings After Death Process

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)
                                                                      Acronyms
    DMF                 Death Master File

    EAD                 Earnings After Death

    ESF                 Earnings Suspense File

    FOIA                Freedom of Information Act

    FY                  Fiscal Year

    IRS                 Internal Revenue Service

    MEF                 Master Earnings File

    OIG                 Office of the Inspector General

    SSA                 Social Security Administration

    SSN                 Social Security Number

    TY                  Tax Year

    W-2                 Wage and Tax Statement

    WBDOC               Wilkes-Barre Data Operations Center

    1099-MISC           Miscellaneous Income Form




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)
                                                                      Introduction
OBJECTIVE
Our objective was to determine the effectiveness of the Social Security Administration's
(SSA) procedures for resolving earnings suspended due to the earnings after death
(EAD) process.

BACKGROUND
Title II of the Social Security Act requires SSA to maintain records of wage amounts that
employers pay to individuals as well as self-employment earnings.1 To accomplish this,
SSA uses the name and Social Security number (SSN) on the earnings record and
compares this information to the Numident.2 If the name and SSN are determined to
be valid, SSA records the individual’s earnings in his or her Master Earnings File (MEF)
account. Reported earnings that cannot be associated with an individual's name and/or
SSN are placed in the Earnings Suspense File (ESF). Suspended earnings may alter
an individual’s eligibility for retirement and disability benefits and/or the amount of these
benefits.

As of October 2001, the ESF contained over 227 million Wage and Tax Statements
(W-2) and $327 billion in wages accrued between Tax Years (TY) 1937 and 1999 that
could not be matched to individuals’ earnings records. During TY 1999 alone, the ESF
grew by 8.3 million W-2s and $39.4 billion in wages. Approximately 96 percent of the
ESF wages relate to TYs 1970 through 1999.

EAD Process

In addition to verifying an individual’s name and SSN, SSA also reviews the Numident
to determine whether the individual is deceased. When a date of death is present on
the Numident—and the year of death is before the year of reported earnings—both
wages and self-employment earnings are placed in the ESF as EAD records.3 For
example, if an individual died in TY 1998 and earnings were reported for TY 1999 for
that individual, the earnings would be placed in the ESF. The earnings are also saved



1
    42 U.S.C. § 405(c)(2)(A).
2
  The Numident contains identifying information on everyone who has ever been issued an SSN. This
information consists of the individual’s full name, SSN, and date of birth. Generally, the individual's place
of birth and parents’ full names are also included.
3
  Social Security and Medicare taxes are not due on accrued earnings after the date of death because
these amounts are not defined as wages for purposes of the Federal Insurance Contributions Act,
26 U.S.C. § 3121(a)(14). Such earnings should be reported on a Miscellaneous Income Form
(1099-MISC).


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                                         1
to an EAD investigate file, which is transmitted to the Wilkes-Barre Data Operations
Center (WBDOC), so that notices can be printed and mailed to employers and/or
earners (see Appendix B for a sample EAD notice).4

SSA prints and mails EAD notices to employers, employees, and self-employed
individuals. The notices are used to determine whether the number holder is deceased.
If the earnings are reported to SSA on a W-2, a notice is sent to the employer. A
follow-up notice is sent to the employee 90 days later, if the employer does not respond.
In the case of self-employed earnings, the initial EAD notice is sent to the individual for
resolution.

Employer responses are returned to the WBDOC for processing. If the employer states
the individual was working for them, WBDOC staff send a notice to the employee
requesting that he or she visit a field office to correct the earnings information. At the
field office, staff interview the individual and verify his or her identification. If the
evidence appears valid, SSA personnel reinstate wages to the proper wage earner's
account. If the employer states the wage earner is deceased, SSA informs the
employer to refund the employee's share of the Social Security taxes to the employee's
estate or next of kin.5 In addition, the relevant wages will remain in the ESF. Notices
sent to employees and self-employed earners request that the individuals call SSA or
visit a field office to resolve the earnings problem (see Appendix C for a flow chart of the
EAD process).

Multiple Items Per Individual in the Investigate File

During TY 1998, a total of 64,847 earnings items were suspended under the EAD
process. These suspended items related to 47,818 individuals. While 38,129 of the
individuals (80 percent) had only 1 earnings item in the file, another 9,689 (20 percent)
had at least 2 earnings items in the ESF. Figure 1 shows the percentage of individuals
with multiple TY 1998 EAD suspended items.




4
    Starting in TY 2001, SSA began using a contractor to print and mail these notices.
5
 SSA also informs employers that they can ask for a refund of the employee and employer Social
Security taxes from the IRS.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                              2
                        Figure 1: Number of Wage Items Per Individual
                              in the TY 1998 EAD Investigate File
                                         More than 6
                                            1%
                                         3-5 Items
                                           7%
                               2 Items
                                  12%




                                                              Only 1 Item
                                                                 80%




SCOPE AND METHODOLOGY

To meet our objective, we:

·   Discussed the EAD process with SSA officials and performed a walk-through of the
    process at WBDOC. We also visited field offices and the teleservice center in SSA's
    Region 3.

·   Obtained an EAD investigate file containing 64,847 earnings items (63,224 related to
    W-2 wages and 1,623 related to self-employment income)—with a corresponding
    value of $335.5 million—suspended under the EAD process in TY 1998. From this
    population, we selected a random sample of 200 items. See Appendix A for our
    sampling methodology.

·   Determined for each sampled item whether the earnings remained in the ESF or, if
    reinstated, verified the amount and timing of the reinstated earnings. We also
    determined whether additional items could be reinstated.

·   Discussed sample cases with SSA staff to resolve outstanding questions.

·   Requested EAD production statistics from the WBDOC staff to include
    (1) correspondence generated and mailed; (2) processed receipts;
    (3) undeliverables; and (4) remailables.

·   Requested an extract from SSA's ESF Reinstates File for TYs 1994 through 1998
    showing earnings corrections due to the EAD process.

·   Reviewed policies and procedures regarding EAD processing.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                    3
Our audit did not include a test of information systems to verify the completeness and
accuracy of the EAD investigate file or ESF Reinstates File provided by SSA.6 Our work
was conducted at SSA field offices and a teleservice center in Region 3, the Data
Operations Center in Wilkes-Barre, Pennsylvania, and SSA Headquarters in Baltimore,
Maryland. We conducted our field work between April 2001 and February 2002. The
SSA entity responsible for the maintenance of the ESF is the Office of Central
Operations within the Office of the Deputy Commissioner of Operations. Our review
was conducted in accordance with generally accepted government auditing standards.




6
  During the course of our audit, we learned from SSA systems staff that the EAD process had alerted
cases that did not meet the EAD criteria. As designed, an EAD alert was only supposed to occur when
(1) the name and SSN were valid and (2) SSA's records showed the SSN owner was deceased.
However, due to an error is SSA’s processing, the EAD process had alerted cases where the name and
SSN combination were invalid. We found 17 instances among our 200 sample cases where incorrect
EAD alerts occurred. However, since all of these earnings were suspended wages in need of resolution,
and all of them were consistently processed under EAD procedures, our sample results were not
affected. According to SSA staff, this processing error was fixed soon after TY 2000.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                                     4
                                            Results of Review
SSA's EAD process was not effective in resolving TY 1998 suspended earnings items.
While SSA reinstated approximately 6 percent of the suspended items in our sample,
another 22 percent of the suspended items could also have been reinstated. Half of
these potential reinstatements related to suspended items that SSA could have
reinstated since the individuals were shown as alive on SSA's records. In the remaining
cases, SSA's records indicated the individuals may be incorrectly listed as deceased, or
another party earned the funds in the ESF. Another 33 percent of the sample items
contained instances where it appears someone else was using the deceased
individual's name and/or SSN. The remaining 39 percent of our sample items related to
deceased individuals with legitimate earnings that should not have been reported to
SSA as wages.

EFFECTIVENESS OF EAD PROCESS
Of 200 TY 1998 suspended items, SSA had reinstated 12 items (6 percent) through the
EAD process, representing approximately $280,000 in earnings. Projecting the
12 items SSA reinstated through the EAD process to our population of 64,847 TY 1998
earnings items, we estimate that 3,891 suspended items representing approximately
$90.9 million in earnings had been reinstated through the EAD process. (See Appendix
A for our sampling methodology and results.)



                       Figure 2: Results of EAD Sample
                                6%

                                                       Reinstated by SSA
                                     11%
                                                       Earner Alive
             33%
                                                       Earner May be Alive or Wrong
                                           11%         Earner
                                                       Miscellaneous Income -
                                                       Entertainment
                                                       Miscellaneous Income - Other


                                        13%            Someone Else Using SSN



                       26%




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                    5
We determined that an additional 43 suspended items could be reinstated through
SSA's EAD process, including:

   ·   21 items (11 percent) where the earners are alive on SSA's records, representing
       approximately $168,000 in earnings. These 21 items project to 6,809 suspended
       items representing approximately $54.5 million in earnings that should be
       reinstated by SSA.

   ·   22 items (11 percent) where the individuals who own the SSNs were deceased
       on SSA's records, though it appeared either the individuals were incorrectly listed
       as deceased, or the earnings belonged to other individuals. These cases
       represent about $155,000 in earnings, and these 22 items project to 7,133
       suspended items representing about $50.4 million in earnings that SSA may be
       able to reinstate.

Of the remaining 145 suspended items in our sample:

   ·   67 items (33 percent) potentially indicate that others were using the deceased
       individuals’ SSNs, representing about $372,000 in earnings. This issue needs to
       be investigated further for potential SSN misuse. These 67 items project to
       21,724 suspended items, representing about $120.7 million in earnings.

   ·   78 items (39 percent) relate to legitimate earnings that should have been
       reported to SSA as miscellaneous income on an Internal Revenue Service (IRS)
       Form 1099-MISC rather than as wages on a W-2, representing about $50,000 in
       earnings. These 78 items project to 25,290 suspended items representing about
       $16.3 million in earnings. Approximately one-third of these legitimate earnings
       related to entertainment industry employers.

EFFECTIVENESS OVER THE PAST 5 YEARS
Between Fiscal Years (FY) 1995 and 1999, SSA mailed approximately 445,988 EAD
notices to the public. Of the mailed notices, SSA reported:

   ·   the WBDOC received and processed approximately 128,949 return notices
       (28.9 percent) from employers and/or individuals;

   ·   approximately 19,136 notices (4.3 percent) were deemed "undeliverable" due to
       an incomplete address or no forwarding address;

   ·   about 1,529 notices (0.3 percent) were re-mailed based on a new forwarding
       address; and

   ·   approximately 296,374 notices (66.5 percent) were never returned to SSA.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                      6
Between TYs 1994 and 1998, the EAD process was able to reinstate an average of
6,300 earnings items annually. Of the approximately 445,988 EAD notices for TYs
1994 through 1998, about 31,585 (7.1 percent) resulted in earnings reinstatements.7
We provide this 5-year analysis in Figure 3 below.

                          Figure 3: 5 Years of EAD Processing
                                      (TYs 1994-1998)
                                  Reinstatements            Confirmed
                                       7.1%                  Death /
                                                           Incomplete
                          Remailables                       Response
                             0.3%                             21.8%




                                                                 Undeliverable
                                                                     4.3%



                          No Response
                             66.5%




SSA REINSTATEMENTS AND RECURRING SUSPENSIONS
Although SSA was able to reinstate 12 of the 200 suspended items in our sample, a
further review of these items indicated that, in 5 of the 12 cases (42 percent), earnings
were suspended and reinstated for these individuals at least twice. In two cases, the
reinstatement in TY 1998 followed earlier reinstatements. In three cases, the TY 1998
reinstatement was followed by a TY 1999 EAD suspension. For example, SSA
reinstated $18,053 for an individual in TY 1998. However, TY 1999 earnings of $15,575
were also suspended under the EAD process.

These cases indicate that either (1) an erroneous death was reported again; (2) the
date of death was never removed from the Numident during the earlier reinstatement; or
(3) the field office staff failed to notice suspended items from other TYs when removing
the first suspended item. It is not clear what happened since neither the Numident nor




7
  Each TY is generally processed in the first 9 months of the following calendar year. In the above
example, TY 1994 EAD notices were processed during the last 9 months of FY 1995. SSA's Epoxy
accounting data do not accurately reflect the number of EAD items reinstated for the same period. This
could indicate that the reinstatement rate might be higher. However, we were unable to confirm this data
for the period covered. Therefore, we restricted our analysis to initial EAD notices.



Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                                    7
the Earnings Modernization 2.8 system8 maintain an audit trail showing whether a date
of death was removed.9 However, in each case, SSA had to prepare a new EAD notice
for the employer and/or employee and initiate the entire reinstatement process again.
This incomplete processing of suspended items also impacts SSA's service delivery
since earners must revisit field offices, prove they are alive, and request once again that
their wages be reinstated.

POTENTIAL REINSTATEMENTS

SSA could have reinstated an additional 43 of the 200 suspended earnings items in our
sample. The evidence we reviewed indicated (1) the individual who earned the
suspended amount was shown as alive on SSA's Numident; (2) the Numident appears
to incorrectly list the individual as deceased; or (3) the earnings may belong to another
individual. These cases are described below.

Individuals Alive on the Numident

In 21 of the 43 cases, the individuals were alive according to the Numident, but their
TY 1998 earnings were still in the ESF. Apparently, these individuals were erroneously
listed as deceased at one time on SSA's Numident. In one sample case, the individual
was alive on the Numident but still had $16,126 in TY 1998 earnings in the ESF
because of the EAD process. In addition, the suspended earnings were consistent with
this individual's work history. We contacted SSA to see if these earnings could be
reinstated. Field office staff agreed with our observations and reinstated these
earnings.10 We have referred these 21 cases to SSA field offices for resolution. As of
May 2002, nine of these individuals had their wages reinstated.

Individuals Incorrectly Listed as Deceased

In another 12 of the 43 sample cases, the earners appeared to be alive and incorrectly
listed as deceased on the Numident. For example, in one of our cases, the Numident
showed the individual as deceased since 1968, while the ESF indicated the same
individual earned $6,410 in TY 1998 from three different employers. In this case, SSA
had reinstated TY 1999 earnings under the EAD process in the amount of $7,200. If the

8
  The Earnings Modernization 2.8 program is a computerized process for making adjustments to an
individual’s earnings record, thereby helping SSA establish and maintain an accurate and complete
MEF. This program allows SSA employees to add, change, move, or delete an individual’s earnings
overnight via interactive input screens. This is basically a paperless system, with proofs and rationale
recorded electronically after an initial inspection by a SSA employee(s).
9
  In an earlier Office of the Inspector General report, Management Controls In Place for Earnings
Modernization 2.8 Transactions Processed at Field Offices and Teleservice Centers (A-03-97-31001),
issued September 1999, we recommended that SSA require that the Earnings Modernization 2.8
documentation and development screens be used for ESF Reinstatements.
10
  A further review of this case indicated that wages from TYs 1997 and 1999 were still in the ESF
because of the EAD process.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                                        8
field office conducted the appropriate review before reinstating the TY 1999 earnings,
then SSA made a determination that this individual was alive. However, the date of
death had not been removed from the Numident. In addition, the field office should
have reinstated these TY 1998 earnings when the TY 1999 earnings were reinstated.
We have referred these sample cases to SSA for further review.

Earnings Posted to the Wrong Account

In the remaining 10 of these 43 cases, the suspended earnings may belong to someone
other than the deceased individual. In two cases, the Numident listed two individuals as
sharing the same SSN, even though each had a distinct name, different dates of birth,
and two different sets of parents. When one of the individuals on the Numident died,
the other individual was also recorded as deceased, resulting in his or her earnings
being placed in the ESF. In one of these cases, an earner's $36,462 in TY 1998
earnings went into the ESF because one of the individuals was listed as deceased since
1998. In the second case, $1,373 in earnings still remained in the ESF even though the
earner was shown as alive on SSA’s Numident.11

QUESTIONABLE USE OF DECEASED NAMES AND SSNs
Of our 200 sample cases, 67 had indications the deceased individuals' SSNs were used
by others. In 23 of these cases, the names used on the W-2s were not the same as the
names of the owners of the assigned SSNs. In such cases, it is possible that the SSN
of a deceased individual was accidentally used, but it could also indicate that someone
was trying to use the deceased individual's identity.12 However, in the remaining
44 cases, it appears that individuals were attempting to use both the names and SSNs
of the deceased individuals to report their TY 1998 earnings. These 44 cases showed
earnings ranging from $20 to $46,700 and were reported to SSA at least 1 year after the
date of death.

In one case, earnings were reported for an individual 32 years after the date of death
shown on the Numident. When we reviewed the earnings history for this name and
SSN, we found no evidence of posted earnings since 1966. Nonetheless, our sample

11
   Based on our review, we could not determine why two different individuals would be listed on one
Numident. Our discussion with SSA staff revealed this type of problem occurs when identifying
information for one person is erroneously posted to the Numident record belonging to another individual.
SSA may have issued the second person on the SSN record a Social Security card with the wrong SSN.
Usually the individual who is assigned the wrong SSN already has a correct SSN. However, there are
cases where the individual was never assigned an original SSN. SSA staff stated that when two
individuals have been assigned the same SSN, SSA corrects the problem by assigning an original SSN to
the second person. If the second person already has another SSN, SSA issues him or her a replacement
card with the correct SSN. If the second person cannot be contacted, refuses to cooperate, or is
deceased, SSA takes other appropriate action to resolve the problem. SSA is investigating the problems
noted in our sample.
12
  The dates of death for 8 of the 23 individuals were removed from SSA's Numident at the time of our
audit. However, our review indicated that the suspended wages belonged to someone other than the
owner of the SSN.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                                    9
item of $4,832—as well as two additional TY 1998 suspended items totaling $7,592—
were in the ESF under the deceased individual's name and SSN. We have referred this
case and the others discussed in this section to the Office of the Inspector General's
(OIG) Office of Investigations to determine whether SSN misuse was involved.

NON-WAGE REPORTING BY EMPLOYERS

From our sample of 200, we identified 78 cases where it appeared the wages belonged
to the deceased individuals. However, these earnings should have been reported as
miscellaneous income on an IRS Form 1099-MISC, and not reported as wages on W-2s
to SSA. In 25 of these 78 cases, the TY 1998 wages related to entertainment industry
employers. These entertainment-related wages appear to be royalty fees issued to the
wage earners’ estates. In one case, a well-known folk singer received $853 in wages
via a W-2 statement from a movie and television conglomerate 3 years after his death.
When we presented these findings to one of SSA's Employee Service Liaison Officers,
he concurred with our assessment.

By reporting these earnings on a W-2, the employer and deceased employee may be
incurring unnecessary payroll taxes. Since taxpayers can resolve this payroll tax issue
directly with the IRS, we do not know whether refunds were ever provided for our
sample items. In
addition to the issue                 Figure 4: Top 10 Employers with
of overpaid taxes,                    EAD Suspended Items in TY 1998
these items are                                 Service
accumulating in the                           (397 items)
                                                  4%
ESF and continue to
overstate the volume                Manufacturing
                                    (1,202 items)
of suspended wages                       13%
and items.

A review of the
TY 1998 EAD
investigate file
                                                                Entertainment
indicated the                                                    (7,916 items)
entertainment                                                         83%
industry is a large
contributor of suspended wage items. Among the 10 employers contributing the highest
number of suspended items, 7 were from the entertainment industry, representing
approximately 83 percent of the suspended items among all 10 employers (see Figure 4
for the breakout of the top 10 employers and the associated wage items). While these
entertainment industry employers represent a large number of items, they tend to be
smaller dollar amounts.13


13
  The average wage amount among the seven entertainment employers noted above was only $167,
whereas the remaining three employers had an average reported wage of $1,393.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                            10
EAD NOTICE AND PROCESSING OF RESPONSES
SSA did not utilize employer responses on returned EAD notices to permanently
remove wage items from the ESF. In addition, SSA’s EAD notice could do more to
assist employers in understanding SSA and IRS reporting responsibilities for wages
paid after an employee’s death.

Employer Confirmation of Death

Approximately 129,000 EAD notices were returned to WBDOC between FYs 1995 and
1999. While up to 32,000 notices led to reinstatements of wages, the remaining
97,000 notices were either incomplete or contained an employer response confirming
the death of an employee. SSA staff was unable to provide more specific information
related to the returned responses, such as the overall number of employer
confirmations of death. However, notices confirming employees’ deaths offered SSA an
opportunity to remove these wages from the ESF. According to SSA staff, the Agency
has the ability to remove items from the ESF, while still maintaining evidence of the
correction in the earnings system. Such removals could reduce the size of the ESF,
while maintaining evidence of the removal.

IRS Form 1099-MISC

In its EAD notice to employers, SSA states that "If employment ended because the
employee died, refund the employee's share of the Social Security taxes to the
employee's estate or next of kin, and obtain a receipt. Then, ask for a refund of the
employer and employee Social Security taxes from the Internal Revenue Service (IRS)."
The notice is silent on how such wages should have been initially reported, even though
the IRS requires that a deceased employee's wages must be filed on an IRS Form
1099-MISC. According to IRS instructions, "If an employee died during the year, you
must report on Form 1099-MISC the accrued wages, vacation pay, and other
compensation paid after the date of death. If you made the payment after the year of
death, do not report it on Form W-2, and do not withhold social security and Medicare
taxes." By adding this information to the EAD notice, SSA could assist the employer
with current reporting problems, while also aiding the employers in avoiding future wage
reporting errors.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                   11
                                             Conclusions and
                                           Recommendations
We identified a number of instances where the effectiveness of SSA's EAD process
could be improved. While SSA has been able to reinstate a number of suspended
earnings, we still located significant earnings where the individuals are alive on SSA's
records, but the earnings have not been reinstated. In these cases, a periodic
comparison of earlier EAD suspended items to the most recent Numident could have
led to the reinstatement of the suspended items. In addition, SSA could implement
procedures to remove suspended wages from the ESF when the employer confirms the
employee’s death. SSA could also reduce the number of items entering the ESF by
educating employers—particularly in the entertainment industry—on the process for
reporting earnings when the earner is deceased.

To improve the Agency's ability to reinstate wages suspended under the EAD process,
we recommend that SSA:

1. Resolve remaining cases in our sample where the individuals were determined to be
   alive, incorrectly listed as deceased, or where another party earned the funds in the
   ESF.

2. Periodically match prior year EAD suspended items to the Numident to determine
   whether the individuals are still listed as deceased. If they are not deceased,
   reinstate their earnings as appropriate.

3. Remind staff reinstating earnings suspended under the EAD process to (1) remove
   the date of death on the Numident and (2) determine whether additional items
   suspended for the same individual can be reinstated.

4. Maintain the annual EAD investigate files with unresolved suspended items for later
   review of potential SSN misuse by SSA and the OIG. The OIG will use this
   information to conduct trend analysis, investigations or seek other remedies.

5. As EAD notices are returned, remove from the ESF those wage items specifically
   identified in the notice related to employees whose deaths are confirmed by
   employers.

6. Educate the top 10 contributors to the EAD investigate file—especially entertainment
   industry employers—that earnings reported after the year of death should be
   reported as miscellaneous income, not as wages.

7. Add language to the EAD notice to educate employers on the proper reporting
   procedures for wages after employees have died.



Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                   12
AGENCY COMMENTS
SSA agreed with five of our seven recommendations, provided a qualified concurrence
on Recommendation 5 and disagreed with Recommendation 6. SSA agreed with the
intent of Recommendation 5, but noted it is the Agency’s policy to not remove items
from the ESF unless they can be posted to an individual’s Master Earnings Record. As
a result, there is no mechanism for simply deleting items from the ESF. Also, SSA is
implementing a number of enhancements to increase the accuracy of all earnings
posted with an emphasis on reducing the size and growth of the ESF. However, the
Agency does not yet know whether these activities will have an impact on EAD
suspended wages.

Regarding Recommendation 6, SSA stated that the dollar amount of items placed into
the ESF from these employers is very low. As a result, SSA does not believe that
implementing this recommendation would be cost-effective considering the time and
resources needed to implement the recommendation.

OIG RESPONSE

We believe Recommendation 5 is consistent with SSA's efforts to reduce the size and
growth of the ESF. As a result, SSA may need to revisit its policy regarding wage item
removal and ensure that such changes are part of future enhancements to the ESF.

We also believe that SSA should act on Recommendation 6 to reduce the number of
wage items going into the ESF. In TY 1998, SSA incurred administrative costs notifying
these top 10 employers of approximately 9,500 instances where wages were reported
after an employee’s death. As a result, SSA is already spending time and resources on
these employers. By contacting these top 10 employers, SSA could reduce a similar
workload in future years. Also, since most of the entertainment employers cited in our
report appear to be located in California, SSA may expend fewer resources educating
these employers than expected.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                  13
                                                               Other Matters
ERRONEOUS DEATH INFORMATION
An earnings item in the EAD investigate file indicates that SSA's Numident, at one time,
showed the earner as deceased. However, as discussed earlier in this report, 45 of our
200 sample items (22.5 percent) represent cases where incorrect death information was
listed on SSA's records. In a previous audit, we also identified a number of individuals
who were incorrectly listed as deceased.14 SSA's Numident file may contain incorrect
death information for a number of reasons. For example, we have already noted
instances where two individuals sharing the same SSN can cause death information to
be recorded for the wrong individual. Regardless of the cause, this incorrect death
information is shared with Federal and State agencies, as well as the private sector,
through SSA’s Death Master File (DMF).

SSA maintains the DMF and provides the file on a cost-reimbursable basis
under the Freedom of Information Act (FOIA). SSA extracts information from its
Numident and creates a complete DMF each quarter. The DMF is distributed to
10 Federal agencies, including 4 that pay Federal benefits. These agencies use the file
to identify deceased individuals who are receiving benefits. In addition, the DMF is
released to the National Technical Information Service, which responds to FOIA
requests. Each month, SSA provides a supplemental tape containing newly recorded
deaths and any changes or deletions to the DMF.

We believe that improving the effectiveness of the EAD process could also remove
some of the incorrect death information from SSA's death records. As a result, SSA will
improve the accuracy of its own records, as well as the records of those who depend
upon SSA's death information.




14
   In an OIG report entitled Disclosure of Personal Beneficiary Information to the Public (A-01-01-01018),
issued January 2002, we recommended that SSA correct erroneous death information to improve the
accuracy of its DMF.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                                     14
                                       Appendices




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)
                                                                      Appendix A

Sampling Methodology and Results
From the Social Security Administration (SSA), we obtained a copy of the Tax Year
(TY) 1998 earnings after death (EAD) investigate file, which represented earnings items
suspended because of the recorded death of the earners. Our population consisted of
64,847 TY 1998 earnings items totaling over $335,516,549. We selected a random
sample of 200 items from this population, with an associated dollar value of $1,026,354.




                          Sample Results and Projections

Population size in items                                                    64,847
Sample size in items                                                           200
                                        Attribute Projections

Sample cases – Earnings items reinstated through the EAD
                                                                                12
process
Projection – Earnings items reinstated through the EAD
                                                                             3,891
process
Projection lower limit                                                       2,270
Projection upper limit                                                       6,184

Sample cases – Earnings items where the owner of the
                                                                                21
Social Security number (SSN) is alive on the Numident
Projection – Earnings items where the owner of the SSN is
                                                                             6,809
alive on the Numident
Projection lower limit                                                       4,635
Projection upper limit                                                       9,573
Note: All projections are at the 90-percent confidence level.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                  A-1
                                        Attribute Projections

Sample cases – Earnings items where the individual who
owns the SSN may not be deceased or the earnings appear                  22
to belong to other individuals
Projection – Earnings items where the individual who owns
the SSN may not be deceased or the earnings appear to                  7,133
belong to other individuals
Projection lower limit                                                 4,908
Projection upper limit                                                 9,940

Sample cases – Earnings items where others were
                                                                         67
potentially using the deceased individuals' SSNs
Projection – Earnings items where others were potentially
                                                                      21,724
using the deceased individuals' SSNs
Projection lower limit                                                18,144
Projection upper limit                                                25,544

Sample cases – Earnings items related to legitimate
earnings that should have been reported as miscellaneous                 78
income
Projection – Earnings items related to legitimate earnings
                                                                      25,290
that should have been reported as miscellaneous income
Projection lower limit                                                21,553
Projection upper limit                                                29,188
Note: All projections are at the 90-percent confidence level.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)            A-2
                                     Variable Projections

Sample cases – Earnings reinstated through the EAD
                                                                         $280,397
process
Projection - Earnings reinstated through the EAD process               $90,914,515
Projection lower limit                                                 $36,315,480
Projection upper limit                                                $145,513,550

Sample cases – Earnings that could be reinstated by SSA                   $168,034
Projection – Earnings that could be reinstated by SSA                  $54,482,533
Projection lower limit                                                 $13,989,349
Projection upper limit                                                 $94,975,718

Sample cases – Earnings where the individual who owns the                $155,387
SSN may not be deceased or the earnings appear to belong
to other individuals
Projection – Earnings where the individual who owns the                $50,381,797
SSN may not be deceased or the earnings appear to belong
to other individuals
Projection lower limit                                                 $20,096,146
Projection upper limit                                                 $80,667,448

Sample cases – Earnings where others were potentially                    $372,281
using the deceased individuals' SSNs
Projection – Earnings where others were potentially using             $120,706,517
the deceased individuals' SSNs
Projection lower limit                                                 $77,176,482
Projection upper limit                                                $164,236,552

Sample cases - Legitimate earnings that should have been                   $50,256
reported as miscellaneous income
Projection – Legitimate earnings that should have been                 $16,294,676
reported as miscellaneous income
Projection lower limit                                                  $7,607,904
Projection upper limit                                                 $24,981,448
Note: All projections are at the 90-percent confidence level.

Based on our review of SSA’s investigate file, approximately 10 percent of the
suspended items had no associated wages. As a result, some of our variable
projections contain no associated wages. For example, in our variable projection of the
21 items that SSA could have reinstated, only 20 of the suspended items had
associated dollar amounts. As a result, our attribute appraisal was based on 21 sample
cases, while our variable appraisal was based on 20 cases.


Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                  A-3
                                                                                                  Appendix B

EARNINGS AFTER DEATH NOTICE

Social Security Administration
Retirement, Survivors, and Disability Insurance
Request for Employee Information
                                                                     Social Security Administration
                                                                     Data Operations Center
                                                                     P.O. Box 39
                                                                     Wilkes Barre, PA 18767-0039

                                                                     Date:

                                                                     Sequence Number:

                                                                     Employer Number:

We are writing to you about your Wage and Tax Statement (W-2) for the employee shown below. The amount you
reported appears to be payments made after the employee stopped working for you and is not covered by Social
Security.

Company Name:
Employee's Name:
Social Security Number:
Reported Earnings:
Tax Year:

Please fill in the information on the back of this form and mail it to us in the enclosed envelope. If possible, verify
the number on the employee's Social Security card and check your records to give us the information requested.

If you have any questions about this letter, you may call us toll free at 1-800-772-6270 from 7 a.m. to 7 p.m.,
Eastern Standard Time.


                                                                             /s/
                                                                     W. Burnell Hurt
                                                                     Associate Commissioner for
                                                                     Central Operations

Enclosure:
Envelope




                                              (Please See Reverse)                                    Form SSA-L4112 (4-99)




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                                                     B-1
Social Security Request for Employee Information                                                             Page 2

1. Does the employee still work for you?                             Yes              No
   (Give last Known Address)



2. Did employment end because the employee died?                       Yes                 No


  If employment ended because the employee died, refund the employee's share of the Social Security taxes to the
  employee's estate or next of kin, and obtain a receipt. Then, ask for a refund of the employer and employee Social
  Security taxes from the Internal Revenue Service (IRS). For details about how to obtain a refund, contact the IRS
  (there are time limits for seeking a refund from the IRS).

3. If the earnings shown above are earnings covered by Social Security, print the name and number shown on the
   employee's Social Security card and the tax year of these earnings.

                                   FIRST                       M. INITIAL                        LAST
  Name:


  Social Security Number                       _           _                        Tax Year:



                                                   THE PRIVACY ACT

Section 205(a) and (c) of the Social Security Act allows us to ask for the information on this form. The information you give us
will be used to give the employee credit for the correct amount of wages. You do not have to complete this letter, however, if
you don't, we can't give the employee credit for the correct amount of wages.

We may give this information to the Internal Revenue for tax administration purposes or to the Department of Justice for
investigating and prosecuting violations of the Social Security Act. We may also use the information you give us when we match
records by computer. Matching programs compare our records with those of other Federal, State or local agencies. Many
agencies may use matching programs to find or prove that a person qualifies for benefits paid by the Federal government. The
law allows us to do this even if you do not agree with it.

Explanations about these and other reasons why information you provide us may be used or given out are available in Social
Security offices. If you want to learn more about this, contact any Social Security office.

                             PAPERWORK REDUCTION ACT AND TIME IT TAKES STATEMENT

This information collection meets the clearance requirements of 44 U.S.C. section 3507, as amended by section 2 of the
Paperwork Reduction Act of 1995. You are not required to answer these questions unless we display a valid Office of
Management and Budget control number. We estimate that it will take you about 10 minutes to read the instructions, gather the
necessary facts, and answer the questions.




                                                                                                 Form SSA-L4112 (4-99)




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                                                          B-2
                                                                                                                                                                                                                     Appendix C

Flow Chart of Earnings After Death Process
                                                 O ffic e o f S y s te m s c re a te s a n e a rn in g s
                                                                                                                          S e c o n d n o tic e s e n t to e m p lo y e e if
                                                 a fte r d e a th (E A D ) in v e s tig a te file a fte r
               S uspended                                                                                                 e m p lo y e rs fa ils to re s p o n d in 9 0 d a y s .
                                                 m a tc h in g in c o m in g w a g e s a g a in s t
               Ite m s D u e                                                                                                                                                                                           N o te 1
                                                 th e N u m id e n t.
                                                                                                                                                                                         N o R e p ly /
                 to D e a th                                                                                                                                                           U n d e liv e ra b le

                           T ra n s m itte d
                           to C o n tra c to r

                                                                                                                                                                                        R e m a ile d to
                                                                                                                          E m p lo y e r                                               N e w A d d re s s
                                                                                                                           R e tu rn s
              C o n tra c to r                                        EAD                                                   S o rte d

                                                                                                                                                                                    E m p lo y e r N o tic e s
        In itia l E A D n o tic e s p rin te d                                                                                                                                         w ith R e p lie s
                                                                                                            N o tic e s re tu rn e d to S S A ’s
        a n d m a ile d to e m p lo y e rs
                                                                                                            W ilk e s -B a rre D a ta O p e ra tio n s
        a n d s e lf-e m p lo y e d . N o tic e
                                                                                                            C e n te r (W B D O C ) a n d s o rte d .
        s e n t to e m p lo y e e if e m p lo y e r
                                                                                                            O n ly e m p lo y e r re s p o n s e s a re re tu rn e d ,
        fa ils to re s p o n d in 9 0 d a y s .
                                                                                                            s e lf-e m p lo y e d a n d e m p lo y e e s
                                                                                                            a re a s k e d to v is it fie ld o ffic e (s e e
        N o te 2
                                                                                                            fie ld o ffic e s te p b e lo w ).


             E x a m in e                                      R e s p o n s e in d ic a te s e m p lo y e e d e c e a s e d /n o t e m p lo y e d w ith e m p lo y e r.
                                                                                                                                                                                                                   R e m a in s
             a n d S o rt                                                                                                                                                                     No
                                                                                                                                                                                                                 in E a rn in g s
                                                       N o te 2
                                                                                                                                                               In d iv id u a l                                   S uspense
    Q u e s tio n a b le                                                                        F ie ld O ffic e
    & dam aged                                                                                                                                                  E a rn e d                                            F ile
    re p lie s a re                                                                                                                                             W ages?
    s e n t fo r                                                                                                                                                                              Yes
    re s o lu tio n .
                                                                                               S e lf-e m p lo y e d                                                                                             P o s te d to
                                                                                               a n d e m p lo y e e                                                                                                M a s te r
                                                                                               le tte r re c ip ie n ts                    If in d iv id u a l p ro v id e s c o rre c te d
                                                                                               v is it fie ld o ffic e                     in fo rm a tio n , fie ld o ffic e re in s ta te s                     E a rn in g s
              E a rn in g s                                                                    to re s o lv e w a g e s .                  e a rn in g s .                                                            F ile
             T e c h n ic ia n

              N o te 1 : E m p lo y e r n o tic e s w ith n o re p ly le a d to a n o tic e to e m p lo y e e . U n d e liv e ra b le e m p lo y e e n o tic e s c a u s e w a g e s to re m a in in s u s p e n s e .
              N o te 2 : R e s p o n s e in d ic a te s e m p lo y e e w o rk e d a t c o m p a n y . F o llo w -u p n o tic e s e n t to e m p lo y e e re q u e s tin g h e /s h e v is it fie ld o ffic e fo r c o n firm a tio n .



Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)
                                                                      Appendix D

Agency Comments




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)
                                         SOCIAL SECURITY


MEMORANDUM


Date:       July 23, 2002                                                        Refer To:   S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Review of the Effectiveness of the
            Earnings After Death Process,” A-03-01-11035


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report contents and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "REVIEW OF THE EFFECTIVENESS OF THE EARNINGS AFTER DEATH
(EAD) PROCESS," A-03-01-11035

We appreciate the opportunity to comment on the draft report. Overall, we found value in the
report contents and recommendations. Our responses to the specific recommendations are
provided below.

Recommendation 1

SSA should resolve the remaining cases in our sample where the individuals were determined to
be alive, incorrectly listed as deceased, or where another party earned the funds in the earnings
suspense file (ESF).

Comment

We agree. OIG’s EAD investigation file contained 200 1998 tax year suspended earnings items,
12 of which were reinstated during the study. We have initiated contact with OIG to identify and
resolve the remaining 188 suspended items.

Recommendation 2

SSA should periodically match prior year EAD suspended items to the Numident to determine
whether the individuals are still listed as deceased. If they are not deceased, reinstate their
earnings as appropriate.

Comment

We agree and will work with other SSA components to implement recommended improvements
to the EAD process. We will develop an implementation plan by the end of the calendar year.

Recommendation 3

SSA should remind staff reinstating earnings suspended under the EAD process to remove the
date of death on the Numident and determine whether additional items suspended for the same
individual can be reinstated.

Comment

We agree. The Agency plans to issue a reminder to the field by August 15, 2002.

Recommendation 4

SSA should maintain the annual EAD investigate files with unresolved suspended items for later
review of potential Social Security Number misuse.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                          D-2
Comment

We agree. The retention period of the EAD investigate files can be tailored to the users' needs.
OIG and other users will submit their requests to the Office of Systems for the necessary
establishment of an appropriate retention period.

Recommendation 5

As EAD notices are received, SSA should remove from the ESF all wage items related to
employees whose deaths are confirmed by employers.

Comment

We agree with the intent of this recommendation; however, it is the Agency’s policy not to
remove items from the ESF if they cannot be posted to an individual’s Master Earnings Record.
Currently, there is no mechanism for simply deleting items from the ESF. The Agency is
implementing a number of enhancements to increase the accuracy of all earnings posted with an
emphasis on reducing the size and growth of the ESF. We do not yet know if those activities
will have an impact on EAD wages being placed in suspense.

Recommendation 6

SSA should educate the top 10 contributors to the EAD investigate file (especially entertainment
industry employers) that earnings reported after death should be reported as miscellaneous
income, not as wages.

Comment

We disagree. The dollar amount of items placed into suspense is extremely low from these
employers. We do not believe that implementing this recommendation would be cost effective,
as the small savings that might result would not offset the time and resources expended to
implement the recommendation.

Recommendation 7

SSA should add language to the EAD notice to educate employers on the proper reporting
procedures for wages after employees have died.

Comment

We agree. The current SSA letter, form SSA-L-4112, advises the employers to refund any taxes
paid if the employee is deceased. We will revise the SSA-L-4112 by June 2003 and will include
language to instruct employers on the proper reporting of employees’ wages after their death.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)                          D-3
                                                                       Appendix E
OIG Contacts and Staff Acknowledgments
OIG Contacts

       Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

       Walter Bayer, Deputy Director, (215) 597-4080

Staff Acknowledgments

In addition to those named above:

       Richard Devers, Auditor

       Carol Ann Frost, Computer Specialist

       Walt Mingo, Auditor-in-Charge


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-01-11035.




Effectiveness of SSA's Earnings After Death Process (A-03-01-11035)
                             DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Western Audit Division                                             1
 Director, Southern Audit Division                                            1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
                                                                             Page 2


Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                       1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                       1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                       1
Chairman, Committee on Appropriations, U.S. Senate                              1
Ranking Minority Member, Committee on Appropriations, U.S. Senate               1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                 1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                    1
Chairman, Committee on Finance                                                  1
Ranking Minority Member, Committee on Finance                                   1
Chairman, Subcommittee on Social Security and Family Policy                     1
Ranking Minority Member, Subcommittee on Social Security and Family Policy      1
Chairman, Senate Special Committee on Aging                                     1
Ranking Minority Member, Senate Special Committee on Aging                      1
President, National Council of Social Security Management Associations,
  Incorporated                                                                  1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                  1
Social Security Advisory Board                                                  1
AFGE General Committee                                                          9
President, Federal Managers Association                                         1
Regional Public Affairs Officer                                                 1


Total                                                                          96
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
